<html>
<title> - THE ROLE OF TECHNOLOGY IN COUNTERING TRAFFICKING IN PERSONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                         THE ROLE OF TECHNOLOGY
                  IN COUNTERING TRAFFICKING IN PERSONS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INVESTIGATIONS
                             AND OVERSIGHT
                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 28, 2020

                               __________

                           Serial No. 116-78                       

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
40-870 PDF           WASHINGTON : 2021        
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                MIKE GARCIA, California
BEN McADAMS, Utah                    THOMAS P. TIFFANY, Wisconsin
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
                                 ------                                

              Subcommittee on Investigations and Oversight

                  HON. BILL FOSTER, Illinois, Chairman
SUZANNE BONAMICI, Oregon             RALPH NORMAN, South Carolina, 
STEVE COHEN, Tennessee                   Ranking Member
DON BEYER, Virginia                  ANDY BIGGS, Arizona
JENNIFER WEXTON, Virginia            MICHAEL WALTZ, Florida
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
PAUL TONKO, New York                 ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    THOMAS P. TIFFANY, Wisconsin
STEVE COHEN, Tennessee
BILL FOSTER, Illinois

                         C  O  N  T  E  N  T  S

                             July 28, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Bill Foster, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     9
    Written Statement............................................    10

Statement by Representative Ralph Norman, Ranking Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    11
    Written Statement............................................    12

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    14
    Written Statement............................................    15

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    15

Written statement by Representative Frank D. Lucas, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    16

                               Witnesses:

Ms. Anjana Rajan, Chief Technology Officer, Polaris
    Oral Statement...............................................    17
    Written Statement............................................    19

Mr. Matthew Daggett, Technical Staff, Humanitarian Assistance and 
  Disaster Relief Systems Group, Lincoln Laboratory, 
  Massachusetts Institute of Technology
    Oral Statement...............................................    26
    Written Statement............................................    28

Ms. Emily Kennedy, President and Co-Founder, Marinus Analytics
    Oral Statement...............................................    46
    Written Statement............................................    48

Ms. Hannah Darnton, Associate Director of Ethics, Technology, and 
  Human Rights, Business for Social Responsibility
    Oral Statement...............................................    52
    Written Statement............................................    55

Discussion.......................................................    75

             Appendix I: Answers to Post-Hearing Questions

Ms. Anjana Rajan, Chief Technology Officer, Polaris..............    96

            Appendix II: Additional Material for the Record

Statement submitted by Kayse Lee Maass, Ph.D., Assistant 
  Professor of Industrial Engineering & Director of the 
  Operations Research and Social Justice Laboratory, Northeastern 
  University.....................................................   100


                         THE ROLE OF TECHNOLOGY

                  IN COUNTERING TRAFFICKING IN PERSONS

                              ----------                              


                         TUESDAY, JULY 28, 2020

                  House of Representatives,
                     Subcommittee on Investigations
                                     and Oversight,
                        joint with the Subcommittee
                        on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Subcommittees met, pursuant to notice, at 10:09 a.m., 
via Webex, Hon. Bill Foster [Chairman of the Subcommittee on 
Investigations and Oversight] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Chairman Foster.  And, without objection, the Chair is 
authorized to declare a recess at any time.
     But before I deliver my opening remarks, I want to note 
the unusual circumstances under which we're meeting today. 
Pursuant to House Resolution 965, today, the Subcommittee is 
meeting virtually. Both of them are meeting virtually. And I 
want to announce a couple of reminders to the Members about the 
conduct of this remote hearing. First, Members should keep 
their video feed on for as long as they are present in the 
hearing. Members are responsible for muting and unmuting their 
own microphones, so please keep your microphones muted or 
unmuted, as appropriate.
     Finally, if Members have documents that they wish to 
submit for the record, please email them to the Committee 
Clerk, whose email address was circulated prior to the hearing.
     And so with that, good morning, and welcome to today's 
remote hearing entitled ``The Role of Technology in Countering 
Trafficking in Persons.'' This is a joint Subcommittee hearing 
between the Investigations and Oversight Subcommittee and the 
Research and Technology Subcommittee, and I'm so pleased to 
welcome Chairwoman Stevens and Ranking Member Norman and 
Representative Baird, as well as our colleagues.
     Representative Baird and I represent the entire supply of 
Ph.D. scientists in the U.S. Congress, which is a fact I seldom 
miss an opportunity to point out to this Committee. But I am 
also the son of a civil rights lawyer. My father wrote much of 
the enforcement language behind the Civil Rights Act of 1964. 
My dad knew Martin Luther King, Ralph Abernathy, and many of 
the early heroes of the civil rights movement, and Dad had 
dinner at the kitchen table with Myrlie and Medgar Evers just 6 
weeks before Medgar Evers was shot down in his driveway.
     John Lewis, who we're all mourning this week, used to sit 
with me between votes in the House and where John would tell me 
more about all of the stories of the early civil rights 
movement that I'd grown up listening to from my father.
     My dad was also a scientist, but he stepped away from his 
career in science because he saw civil rights as the great 
moral challenge of his generation. Certainly, stopping human 
trafficking and modern-day slavery is one of the great moral 
challenges of today, and we must bring every tool that we have 
to that fight.
     So, as we prepare to mark the annual World Day Against 
Trafficking in Persons on July 30, I can think of no better 
time to shine a light on the tragic persistence of human 
trafficking and explore the new technologies that will assist 
our efforts to defeat this scourge once and for all.
     Trafficking in persons is a complex problem in the United 
States and around the world. We need to develop better tools to 
disrupt criminal networks, to bring the perpetrators to 
justice, and to support the victims of human trafficking. This 
hearing is an opportunity to learn about new research and novel 
technologies and to consider how America can better integrate 
these assets into the fight against human trafficking.
     And let's be clear. Technology is frequently misused to 
facilitate human trafficking in persons. It provides new 
opportunities for traffickers to target potential victims, 
conduct anonymous and illicit financial transactions, and 
expand their criminal markets. Yet despite its obvious 
challenges, technology is also an important asset for those 
involved in combatting trafficking in persons. Its positive use 
can aid investigations, enhance prosecutions, raise awareness, 
provide services to victims, and shed new light on how 
trafficking networks operate.
     With this in mind, our ability to counter trafficking in 
persons largely depends on how we harness this technology in 
our efforts. We know there's a lot of good work happening to 
combat human trafficking, but there also seems to be a lot of 
opportunity to elevate the role of Federal research and 
development (R&D) in increasing collaboration between the 
agencies.
     The National Science Foundation (NSF), the National 
Institute of Standards and Technology, the Department of 
Homeland Security's Science and Technology Directorate, the 
Department of Transportation's R&D programs, and others can all 
contribute to the goals of prevention and disruption of this 
crime. And we have at our disposal a wide range of tools that 
could be used to support antitrafficking efforts, including 
artificial intelligence (AI) and machine learning. For example, 
AI can help make predictions, recommendations, and decisions to 
identify financial transactions that may be indicative of human 
trafficking networks.
     I'm looking forward to hearing from today's panel of 
witnesses because they bring real-world experience to the 
table, and can recommend ways that we on the Science Committee 
can support efforts to meet challenges with cutting-edge 
technology. This hearing is a great opportunity to think 
outside the box when it comes to research and technology that 
can address many of the causes and consequences of human 
trafficking.
     The more obvious examples are technologies that can aid 
law enforcement in identifying potential perpetrators and 
victims. But beyond that, there are analysis tools that can 
comb through the dark web for illicit transactions; blockchain 
analytics that can help companies and the government track 
their supply chains and identify vulnerabilities that increase 
the risk of human trafficking; and there's an acute need for 
social science research to assess the medical, emotional, and 
material needs of victims and ensure that they are connected to 
the resources that can help them as they reenter society.
     So thank you to all our witnesses for appearing today and 
for the work that you do. Your expertise is invaluable as we 
consider how the Science Committee's oversight and legislative 
powers can help in the fight against human trafficking.
     [The prepared statement of Chairman Foster follows:]

    Good morning, and welcome to today's remote hearing 
entitled ``The Role of Technology in Countering Trafficking in 
Persons.'' This is a joint Subcommittee hearing between the 
Investigations and Oversight Subcommittee and the Research and 
Technology Subcommittee, and I'm so pleased to welcome 
Chairwoman Stevens and Ranking Members Norman and Baird, as 
well as all of our colleagues. As we prepare to mark the annual 
World Day Against Trafficking in Persons on July 30, I can 
think of no better time to shine a light on the tragic 
persistence of human trafficking and explore the new 
technologies that will assist our efforts to defeat this 
scourge once and for all. Trafficking in persons is a complex 
problem, in the United States and around the world. We need to 
develop better tools to disrupt criminal networks, bring the 
perpetrators to justice, and support the victims of human 
trafficking. This hearing is an opportunity to learn about new 
research and novel technologies, and to consider how America 
can better integrate those assets into the fight against human 
trafficking.
    Let's be clear--technology is frequently misused to 
facilitate trafficking in persons. It provides new 
opportunities for traffickers to target potential victims, 
conduct anonymous and illicit financial transactions, and 
expand their criminal markets. Yet despite its obvious 
challenges, technology is also an important asset for those 
involved in combatting trafficking in persons. Its positive use 
can aid investigations, enhance prosecutions, raise awareness, 
provide services to victims, and shed new light on how 
trafficking networks operate. With this in mind, our ability to 
counter trafficking in persons largely depends on how we 
harness technology in our efforts.
    We know that there is a lot of good work happening to 
combat human trafficking, but there also seems to be a lot of 
opportunity to elevate the role of the Federal research and 
development enterprise and increase collaboration between the 
agencies. The National Science Foundation, the National 
Institute of Standards and Technology, the Department of 
Homeland Security's Science and Technology Directorate, the 
Department of Transportation R&D programs, and others can all 
contribute to the goals of prevention and disruption of this 
crime.
    We have at our disposal a wide range of tools that could be 
used to support anti-trafficking efforts, including through 
artificial intelligence and machine learning. For example, AI 
can help make predictions, recommendations, or decisions to 
identify financial transactions that may be indicative of human 
trafficking networks. I'm looking forward to hearing from 
today's panel of witnesses because they bring real-world 
experience to the table, and can recommend ways that we on the 
Science Committee can support efforts to meet challenges with 
cutting-edge technology.
    This hearing is a great opportunity to think outside the 
box when it comes to research and technology that can address 
the many causes and consequences of human trafficking. The more 
obvious examples are technologies that can aid law enforcement 
in identifying potential perpetrators and victims. Beyond that, 
there are analysis tools that can comb through the dark web for 
illicit transactions; blockchain can help companies track their 
supply chains and identify vulnerabilities that increase the 
risk of human trafficking; and there's an acute need for social 
science research to assess the medical, emotional, and material 
needs of victims and ensure they are connected to resources 
that can help them as they reenter society.
    Thank you to our witnesses for appearing today. Your 
expertise will be invaluable as we consider how the Science 
Committee's oversight and legislative powers can help in the 
fight against human trafficking.

     Chairman Foster.  And the Chair now recognizes Ranking 
Member Norman for an opening statement.
     Mr. Norman.  Thank you, Chairman Foster, and Chairwoman 
Stevens. And I want to thank our witnesses for taking the time 
to participate in this joint Subcommittee hearing on this sad 
but real issue, problem that we have going on in America. I'm 
looking forward to learning more from our expert witnesses 
about how technology is being leveraged to combat human 
trafficking and what tools are needed to tackle it.
     Human trafficking is a heinous crime that unfortunately 
impacts all countries. Experts estimate that there are 
approximately 25 million victims of human trafficking around 
the world, many at very young ages, generates roughly $150 
billion in illegal profits annually for criminal organizations, 
terrorists, and rogue nations.
     The internet makes it easy for traffickers to exploit 
victims online and abuse technology to advance their criminal 
enterprises. On the other hand, technology can also be used for 
prevention, prosecution, and the protection of victims and the 
survivors.
     The United States is leading the charge to eradicate human 
trafficking. The Trump Administration has made it a priority to 
confront human trafficking head on using available resources to 
end this horrendous crime once and for all. In 2018, President 
Trump became the first sitting President to attend a meeting of 
the President's Interagency Task Force to Monitor and Combat 
Trafficking in Persons since it was created in 2000. The 
President's recent Executive Order on Combating Human 
Trafficking and Online Child Exploitation in the United States 
establishes a comprehensive and coordinated response to 
preventing and countering human trafficking on United States 
soil.
     It is imperative that we do not turn a blind eye to human 
trafficking in our own communities and work together to address 
and end this crime for good. I again want to thank the 
witnesses for taking the time to share your expertise with us 
today. I yield back the balance of my time.
     [The prepared statement of Mr. Norman follows:]

    Thank you, Chairman Foster, and Chairwoman Stevens. And 
thank you to our witnesses for your participation today in this 
joint subcommittee hearing.
    I am looking forward to learning from our expert witnesses 
about how technology is being leveraged to combat human 
trafficking and what tools are needed to tackle it.
    Human trafficking is a heinous crime that unfortunately 
impacts all countries. Experts estimate that there are 
approximately 25 million victims of human trafficking around 
the world, generating roughly $150 billion in illegal profits 
annually for criminal organizations, terrorists, and rogue 
nations.
    The Internet makes it easy for traffickers to exploit 
victims online and abuse technology to advance their criminal 
enterprises. On the other hand, technology can also be used for 
prevention, prosecution, and the protection of victims and 
survivors.
    The United States is leading the charge to eradicate human 
trafficking. The Trump Administration has made it a priority to 
confront human trafficking head on using available resources to 
end this horrendous crime once and for all. In 2018, President 
Trump became the first sitting president to attend a meeting of 
the President's Interagency Task Force to Monitor and Combat 
Trafficking in Persons since it was created in 2000.
    The President's recent Executive Order on Combating Human 
Trafficking and Online Child Exploitation in the United States 
establishes a comprehensive and coordinated response to 
preventing and countering human trafficking on U.S. soil.
    It is imperative that we do not turn a blind eye to human 
trafficking in our own communities and work together to address 
and end this crime for good. I again want to thank the 
witnesses for taking the time to share your expertise with us 
today. I yield back the balance of my time.

     Chairman Foster.  Thank you. And the Chair now recognizes 
Chairwoman Stevens for an opening statement.
     Ms. Stevens.  Well, good morning and let me say we are all 
ears as we examine the role of science and technology (S&T) in 
combatting human trafficking. I am very eager to hear the 
testimony and responses to our questions from this very 
distinguished panel, particularly as we reflect on World Day 
Against Trafficking in Persons later this week.
     The perpetrators of human trafficking exploit the most 
vulnerable for profit. They often charm or befriend victims, 
mostly the young and those in desperate circumstances, by 
offering a place to live, money, or attention. Then they use 
force, fraud, and coercion to strip them of their freedom. In 
my home State of Michigan, we have had the 11th highest call 
volume in the National Human Trafficking Hotline. I have 
personally attended many symposiums and dialogs on this issue 
in my home district. Particularly in Oakland County, the Human 
Trafficking Task Force serves as a resource for victims and 
their advocates and parents, professionals, and others. 
National and international antitrafficking efforts have helped 
rescue countless survivors of sexual exploitation and forced 
labor.
     Unfortunately, trafficking statistics are increasing 
despite these efforts for the past 20 years. And COVID-19 has 
only rededicated these illicit activities toward more cyber-
enabled exploitation, especially the sexual exploitation of 
minors. This is a $150 billion enterprise in part because it is 
low risk and high reward for the perpetrators. We simply lack 
the tools to disrupt human trafficking at scale, which is what 
we are here today to discuss, explore, and try to solve.
     However, increased and focused investments in science, 
technology, and collaboration enable us to achieve significant 
progress in our antitrafficking efforts. We do not have 
standardized and interoperable data sets to understand and 
measure the prevalence of human trafficking and not having 
identifiable metrics for measuring effectiveness of 
interventions. But increased collaboration among organizations 
collecting various types of data and tools such as machine 
learning can help us overcome these challenges.
     I'm calling today on our National Science Foundation, the 
Department of Transportation, the National Institute of 
Standards and Technology, all agencies that fall under our 
jurisdiction on the Research and Technology Subcommittee to 
utilize their resources, to develop tracking, standards, detect 
patterns, and develop data analytics to combat the existence of 
human trafficking at a national and global level.
     We have a lot of work to do, and I am very proud to be 
here with all of you today on this topic. Let's get something 
done. Thank you, Mr. Chairman. I yield back.
     [The prepared statement of Ms. Stevens follows:]

    Good morning and welcome to this hearing to examine the 
role of science and technology in combatting human trafficking. 
I look forward to hearing testimony from our distinguished 
panel of witnesses on this critical issue, especially as we 
prepare to reflect on World Day Against Trafficking in Persons 
later this week.
    The perpetrators of this crime exploit the most vulnerable 
for profit. They often charm or befriend victims, mostly the 
young and those in desperate circumstances, by offering a place 
to live, money or attention. Then they use force, fraud, and 
coercion to strip them of their freedom. In my home state of 
Michigan, we have the 11th highest call volume to the National 
Human Trafficking Hotline. In my own district, the Oakland 
County Human Trafficking Task Force serves as a resource for 
victims and their advocates and parents, professionals, and 
others.
    National and international anti-trafficking efforts have 
helped rescue many survivors of sexual exploitation and forced 
labor. Unfortunately, trafficking statistics are increasing 
despite these efforts for the past 20 years. And COVID-19 has 
only re-directed these illicit activities toward more cyber-
enabled exploitation, especially the sexual exploitation of 
minors. This is a $150 billion enterprise in part because it is 
low risk and high reward for the perpetrators. We simply lack 
the tools to disrupt human trafficking at scale.
    However, increased and focused investments in science, 
technology, and collaboration may enable us to achieve 
significant progress in our anti-trafficking efforts. We do not 
have standardized and interoperable data sets to understand and 
measure the prevalence of human trafficking and not having 
identifiable metrics for measuring effectiveness of 
interventions. But increased collaboration among organizations 
collecting various types of data and tools such as machine 
learning can help us overcome these challenges. I am calling on 
the National Science Foundation, the Department of 
Transportation, the National Institute of Standards and 
Technology and other federal research agencies to utilize their 
resources to develop tracking, standards, detect patterns, and 
develop data analytics to combat the existence of human 
trafficking at a national and a global level.
    We have a lot of work to do and I look forward to today's 
discussion.
    Thank you and I yield back.

     Chairman Foster.  Well, thank you. And the Chair will now 
recognize Ranking Member Baird for an opening statement.
     Mr. Baird.  Well, thank you, Chairman Foster and 
Chairwoman Stevens, for convening this hearing to examine the 
role of science and technology in disrupting this horrendous 
trade of human trafficking. It's good to see my colleague 
Ranking Member Norman, and I do want to thank all the witnesses 
for being here today and sharing their expertise. Many of my 
remarks, Mr. Chairman, are going to be very similar to some of 
those that have already been made, but I think that kind of 
demonstrates how significant this problem is and how important 
it is that we utilize all of our experience and the experience 
of the witnesses here today to try to counteract this problem.
     You know, and someone already mentioned there's 25 million 
people worldwide are exploited and subjected to forced labor 
through human trafficking every year. To say human trafficking 
is a monumental challenge, I think, would be an understatement. 
It's a challenge that requires a global response. It requires 
international coordination and engagement between government, 
industry, non-profit organizations, and academia. We have such 
a capability in our world today to move internationally and 
move these kinds of situations internationally, and so I do 
think it takes the international coordination and engagement.
     As they've already been mentioned, this is the 20th 
anniversary of the signing of the United Nation's Trafficking 
in Persons Protocol and the enactment of the United States 
Trafficking Victims Protection Act. And over these 20 years, 
public awareness of human traffic has grown substantially. 
Reporting and detection of trafficking is also up globally. 
This anniversary is the opportunity to recognize the progress 
that has been made, but it's also a chance for us to take a 
look at the future to examine and accelerate the new tools to 
prevent, combat, and end human trafficking over the next 20 
years.
     It's amazing to me when we think about the advancements in 
technology in the last 20 years, these last two decades, so 
being able to utilize that technology, it has been an 
enhancement for traffickers. It makes it easier for them, but 
it also may serve as a tremendous tool for us to have 
counterefforts to prevent this kind of thing from taking place.
     Today, we see NGOs (non-governmental organizations) and 
governments and industry using technology to protect victims, 
to stop the traffickers, and prevent trafficking by identifying 
and dismantling the systems that allow them to operate. We're 
lucky to have the experts in these fields with us today as our 
witnesses.
     I would like to applaud the work of the Trump 
Administration in strengthening the Federal responsiveness to 
human trafficking and encouraging increased collaboration from 
government, industry, and law enforcement.
     Lastly, I would be remiss if I did not mention how the 
COVID-19 pandemic has magnified the need for all stakeholders 
to work together in this fight. We know persons who are 
targeted by traffickers tend to be the most vulnerable. 
Isolation and the closure of critical services caused by the 
pandemic means the number of vulnerable people susceptible to 
exploitation by traffickers is rapidly growing.
     So I look forward to hearing from our witnesses today on 
how their organizations are utilizing research and technology 
to stem this tide and strengthen efforts to combat human 
trafficking. Thank you all for taking your time to be here with 
us this morning, and I yield back the balance of my time.
     [The prepared statement of Mr. Baird follows:]

    Thank you, Chairman Foster and Chairwoman Stevens, for 
convening today's hearing to examine the role of science and 
technology in disrupting the horrendous trade of human 
trafficking.
    Nearly 25 million people worldwide are exploited and 
subjected to forced labor through human trafficking every year. 
To say human trafficking is a monumental challenge would be an 
understatement. It is a challenge that requires a global 
response. It requires international coordination and engagement 
between government, industry, non-profit organizations, and 
academia.
    This year is the 20th anniversary of the signing of the 
United Nation's Trafficking in Persons Protocol and the 
enactment of the United States Trafficking Victims Protection 
Act. Over the last 20 years, public awareness of human 
trafficking has grown substantially. Reporting and detection of 
trafficking is also up globally. This anniversary is an 
opportunity to recognize the progress that's been made. But it 
is also a chance for us to look to the future to examine and 
accelerate new tools to prevent, combat, and end human 
trafficking over the next 20 years.
    Technology will play a critical role in combatting human 
trafficking in the future. Although technology can be a tool in 
the hands of the trafficker, it can also be a key tool in our 
efforts to combat trafficking. Today, we see NGOs, governments 
and industry using technology to protect victims, stop 
traffickers, and prevent trafficking by identifying and 
dismantling the systems that allow them to operate. We are 
lucky to have experts in these fields with us today as our 
witnesses.
    I would also like to applaud the work of the Trump 
Administration in strengthening the Federal responsiveness to 
human trafficking and encouraging increased collaboration from 
government, industry, and law enforcement.
    Lastly, I would be remiss if I did not mention how the 
COVID-19 pandemic has magnified the need for all stakeholders 
to work together in this fight. We know persons who are 
targeted by traffickers tend to be the most vulnerable. 
Isolation and the closure of critical services caused by the 
pandemic means the number of vulnerable people susceptible to 
exploitation by traffickers is rapidly growing.
    I look forward to hearing from our witnesses today on how 
their organizations are utilizing research and technology to 
stem this tide and strengthen efforts to combat human 
trafficking. Thank you all for taking your time to be here with 
us this morning and I yield back the balance of my time.

     Chairman Foster.  Thank you. And if there are any Members 
who wish to submit additional opening statements, your 
statements will be added to the record at this point.
     [The prepared statement of Chairwoman Johnson follows:]

    I want to thank Chairman Foster and Chairwoman Stevens for 
holding this important hearing, and I want to thank our 
witnesses for joining us here today. As many of you know, July 
30th is the U.N. World Day Against Trafficking in Persons. It 
is thus very timely for the Science, Space, and Technology 
Committee to convene a hearing to discuss how research and 
technology can be leveraged to help address the horrific 
problem of human trafficking.
    The Federal government can and should do more to invest in 
research and technology to deal with the many facets of the 
causes and consequences of human trafficking. Earlier this 
year, the Dallas Area Rapid Transit system received funding to 
help identify and adopt specific measures to address human 
trafficking. In order to ensure such money is being used to 
implement science driven, effective approaches to reducing 
trafficking, we must invest in the promising work being done by 
scientists across the country. From analyzing illicit online 
activity, to identifying potential victims and perpetrators of 
human trafficking, to understanding and addressing the needs of 
victims as they reenter society, the research community has 
much to contribute to this important fight.
    As we battle a worldwide pandemic, we must not forget about 
the perennial problem of human trafficking, which touches every 
country and every state. I look forward to hearing from our 
witnesses about how this Committee and this Congress can 
support the research community's important work.
    Thank you, I yield back.

     [The prepared statement of Mr. Lucas follows:]

    Human trafficking is a global problem, causing untold 
suffering and pain. And while it often remains an unseen 
problem, the truth is that it is far more widespread and 
destructive than it may seem.
    Emerging and evolving technologies can help us fight this 
plague, though. One of the reasons I enjoy serving on the 
Science Committee is our ability to focus on solutions to some 
of the greatest challenges we face.
    Trafficking in people is a complex problem and fighting it 
requires work on many fronts, from deterrence to detection and 
from enforcement to survivor support. The encouraging news is 
that advances in technology give us new tools at every step of 
this process.
    Using AI to perform big data analysis can help us identify 
patterns of trafficking-a task far too time-consuming for human 
agents to perform. AI tools can comb through websites to find 
advertisements for trafficked people. Photo recognition 
software can help agents identify where victims are being held 
by analyzing photos for similarities to known locations. 
Similarly, facial recognition software can identify 
similarities between photos of trafficked people and missing 
person notices. Because of machine learning, the more these 
tools are used, the better they become.
    This is just a small sampling of technological 
interventions we can employ to fight trafficking, and our 
witnesses will share many more today.
    The President's Interagency Task Force to Monitor and 
Combat Trafficking in Persons is committed to ending human 
trafficking and supporting survivors of this modern-day 
slavery.
    As Members of the Science Committee, we can help focus and 
enhance the technological tools available to the federal 
government in this effort.
    This is one more area in which investing in basic research 
can produce exceptional dividends. Strategic investment in the 
fundamental knowledge needed to advance technologies like AI 
and big data analysis will pay off in discoveries and 
innovations that law enforcement, private industry, and non-
governmental organizations can use to coordinate and improve 
their efforts to fight trafficking in persons.
    It's one of thousands of applications that will benefit 
from technological advancements, and it is one more reason I've 
proposed doubling our national investment in basic research in 
the Securing American Leadership in Science and Technology Act.
    I hope that our Committee can work together to support the 
technology needed to end human trafficking.

     Chairman Foster.  At this time, I'd like to introduce our 
witnesses. Our first witness is Ms. Anjana Rajan. Ms. Rajan is 
the Chief Technology Officer of Polaris, an NGO that uses data-
driven strategies to disrupt and prevent human trafficking and 
modern slavery. Prior to her role at Polaris, Ms. Rajan was the 
former Chief Technology Officer of Callisto, a nonprofit that 
builds cryptographically advanced technology to combat sexual 
assault and a Tech Policy Fellow at the Aspen Institute.
     After Ms. Rajan is Mr. Matthew Daggett. Mr. Daggett is a 
member of the Technical Staff of the Humanitarian Assistance 
and Disaster Relief Systems Group at the Massachusetts 
Institute of Technology's (MIT'S) Lincoln Laboratory, where 
he's worked since 2005. Mr. Daggett's current research focuses 
on developing analytic technologies and systems for the study 
of dark and illicit social networks such as human trafficking 
operations.
     Our third witness is Ms. Emily Kennedy. Ms. Kennedy is the 
President and Co-Founder of Marinus Analytics, which was 
founded in 2014. Ms. Kennedy has led Marinus Analytics national 
and international social impact efforts, product deployment, 
and partnerships expansion. Marinus Analytics is a semifinalist 
in the global IBM Watson AI XPRIZE competition.
     Our final witness is Ms. Hannah Darnton. Ms. Darnton is an 
Associate Director of Ethics, Technology, and Human Rights at 
Business for Social Responsibility. Ms. Darnton focuses on the 
intersection of human rights and new disruptive technology and 
leads the Tech Against Trafficking Collaborative Initiative. 
Prior to her position at Business for Social Responsibility, 
Ms. Darnton worked with the Skoll Foundation.
     And, as our witnesses should know, you will each have 5 
minutes for your spoken testimony. Your entire written 
testimony will be included in the record of the hearing. And 
when you've all completed your spoken testimony, we will begin 
with questions. Each Member will have 5 minutes to question the 
panel.
     And we will now start with Ms. Rajan. You are recognized 
for 5 minutes.

                 TESTIMONY OF MS. ANJANA RAJAN,

                CHIEF TECHNOLOGY OFFICER, POLARIS

     Ms. Rajan.  Thank you, Chairman Foster, Ranking Member 
Norman, Chairwoman Stevens, Ranking Member Baird, and Members 
of the Subcommittees, for having me here today. My name is 
Anjana Rajan, and I'm the Chief Technology Officer of Polaris.
     Polaris's mission is to eradicate human trafficking and 
restore freedom to survivors. We do this in two main ways. 
First, we provide immediate response to victims and survivors 
of human trafficking through our technical operation of the 
National Human Trafficking Hotline. Second, we take the 13 
years of data and insight from the hotline to make long-term 
systems change. We tackle the underlying systems that enable 
sex and labor trafficking, and we work with financial 
institutions to make trafficking less profitable and higher 
risk. Survivors' perspectives inform all of our work.
     At its core, human trafficking is the business of 
exploiting people for profit. It is a $150-billion-a-year 
criminal industry with 25 million victims worldwide. Fighting 
human trafficking must focus on the broader systems that make 
people vulnerable to sex and labor trafficking, and technology 
should be part of an overall strategy to drive change at the 
systems level.
     Human trafficking is about people with power exploiting 
and controlling vulnerable people for their own profit. 
Survivors tell us that restoring their sense of control, 
including choosing when law enforcement intervenes, is 
paramount to their healing. Technology should not only enable 
law enforcement to identify traffickers, it should also be used 
to put power back in the hands of victims and survivors.
     To pass meaningful and effective legislation, it is 
imperative for legislators to fully understand how these 
technologies work. One of the technologies that has recently 
been discussed in this space is encryption. Since my background 
and expertise are in applying cryptography to human rights and 
national security issues, I would like to focus my testimony on 
the importance of encryption in fighting human trafficking.
     In the public debate around encryption, we often only see 
two sides represented, one side that says we should identify 
and apprehend perpetrators at all costs even if that means we 
break encryption to do it, and the other side that says we 
should protect encryption at all costs even if that means 
victims and survivors get hurt. This is a false dichotomy. 
There is a third way that can optimize for both virtues because 
encryption protects victims and survivors. In fact, we can hold 
perpetrators and the platforms that enable them accountable for 
their abuse and exploitation using advanced cryptography, but 
doing so will require innovative thinking and an accurate 
understanding of how these technologies work.
     The threats victims and survivors face are very dangerous, 
uniquely complex, and highly dynamic. They face prolonged 
control and manipulation from traffickers and organized crime 
networks. They face physical, psychological, and sexual 
violence. They face intimidation from conspiracy theorists who 
weaponize disinformation about human trafficking. They may even 
face threats from law enforcement agencies who arrest them 
instead of helping them find freedom.
     To honor the exploratory nature of this Committee hearing, 
I am proposing three possible ideas on how encryption could be 
used help fight human trafficking and support victims and 
survivors.
     First, victims and survivors need safe trauma-informed 
reporting channels. Cryptographic reporting escrows are 
examples of systems where they can learn about their options 
and have the power to take action that is best for them. The 
underlying technology pinning these escrows is called secure 
multiparty computation.
     Second, human trafficking is inherently a commercial 
enterprise. Financial system intervention in human trafficking 
has the potential to increase the risk for traffickers and 
reduce a community's vulnerability to trafficking. Homomorphic 
encryption could allow human trafficking researchers to run 
analytical functions directly on a financial institution's 
encrypted data without ever seeing the sensitive plaintext.
     And third, since human traffickers have eagerly adopted 
the use of cryptocurrencies, law enforcement could leverage the 
fact that these transactions are permanently stored on a public 
decentralized blockchain ledger. With known wallet addresses 
and their corresponding public transactions, law enforcement 
agencies can build an open source data set of human trafficking 
buyers and sellers and ultimately map out the entire network of 
a human trafficking ring.
     In conclusion, human trafficking is a complex problem that 
requires nuanced solutions. It is the result of social, policy, 
and market failures. Technology at its best can help rebalance 
power. However, it is not a panacea. The unchecked use of 
advanced technologies have the potential to suppress freedom 
rather than restore freedom to survivors. We need to design and 
deploy technology with the best interest of victims and 
survivors at the center.
     Thank you for the opportunity to testify. I'm happy to 
answer any questions you may have. Thank you.
     [The prepared statement of Ms. Rajan follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
     Chairman Foster.  Thank you. And next is Mr. Daggett.

                TESTIMONY OF MR. MATTHEW DAGGETT,

            TECHNICAL STAFF, HUMANITARIAN ASSISTANCE

               AND DISASTER RELIEF SYSTEMS GROUP,

                      LINCOLN LABORATORY,

              MASSACHUSETTS INSTITUTE OF TECHNOLOGY

     Mr. Daggett.  Good morning, Chairman Stevens, Ranking 
Member Baird, Chairman Foster, Ranking Member Norman, and 
Members of the Subcommittee. Thank you for the honor and the 
privilege of joining you today to represent the Massachusetts 
Institute of Technology's Lincoln Laboratory and discuss with 
you some of our research and recommendations toward improving 
the role of technology in countering human trafficking.
     MIT Lincoln Laboratory researches and develops a broad 
array of advanced technologies to meet critical U.S. Government 
national security needs. One of our core areas of research 
involves developing technologies for global humanitarian 
assistance and disaster relief, and as part of that initiative, 
we are building novel technologies and systems to counter human 
trafficking. In that role, we're leveraging advances in data 
science, machine learning, and related fields to develop 
enhanced digital evidence analysis capabilities and 
collaborations with Federal and State agencies to reduce the 
time and human-intensive nature of trafficking investigations 
and prosecutions. We also developed a human trafficking 
technology roadmap for the Federal Government consisting of 
targeted findings and recommendations sequenced into a 
prioritized and phased implementation strategy.
     I hope that my testimony today will provide a unique 
perspective on the challenges and opportunities of current 
research and technology for combating human trafficking, and 
the following recommendations, which are detailed in my written 
testimony, may help inform actionable policy initiatives.
     First, the most urgent need for applying technology to 
counter human trafficking is substantially increasing Federal 
funding for research and development, R&D efforts. Today, 
several agencies fund primarily academic research and studies, 
and more funding is greatly needed for prototyping and 
development of new technology. Comparatively, Federal R&D 
budgets that counter other types of illicit and organized crime 
such as narcotics smuggling and counterterrorism are several 
times greater than those for human trafficking. This scarcity 
of funding in size and in frequency limits the establishment of 
a community of engineers, scientists, and technologists who 
understand the human trafficking domain and can become 
practitioners in developing needed solutions.
     Second, we need to establish an interagency R&D entity 
specifically for human trafficking and fundamentally rethink 
how we approach R&D initiatives. Today, point solutions are 
solicited, funded, and developed within individual agencies and 
are often not coordinated across interagency operations and 
result in more limited impacts than if developed in concert 
with other initiatives as part of a broader research strategy 
and vision. And an interagency structure specifically for R&D 
that is focused on and empowered to take risks could 
revolutionize the funding, development, operationalization of 
technology, while improving collaboration and reducing 
duplication of effort.
     Third, we must enhance our R&D agility in technology 
transition. Often, technology is not fully informed by and 
developed in concert with the operations they seek to impact 
and fail to be adopted by practitioners once mature. Agencies 
should adopt a user-centered paradigm where operators are joint 
stakeholders at every stage of the R&D process. User-centered 
methods enable technology to adapt to the mission much more 
quickly and the mission to evolve with continual advances in 
the technology resulting in increased agility, improved 
adoption, and enhanced operations. Additionally, we must 
transition capabilities to our State and local partners, as 
those agencies need new technology the most and have 
significant opportunities for impact.
     Fourth, we need to cross-leverage government technology 
delivered within one mission that has a direct impact--
application or could be modified for a different mission area. 
For example, Department of Defense capabilities to characterize 
and interdict terrorist networks have strong corollaries to 
human trafficking networks. To increase opportunities for 
cross-leverage, the government could establish and elicit a 
network technology working group to create a conduit for shared 
research and technical capabilities across agencies.
     Fifth, we need to measure--develop measures of 
effectiveness and assess our impacts. A key component of a 
coordinated R&D strategy is a process to measure progress 
against an objective. And while Federal and State agencies 
track performance statistics such as individuals prosecuted or 
victims provided with a service, no measure of merit exists to 
assess the effectiveness of the collective government response 
to human trafficking. In order to frame such numbers, we need 
national levels of models of vulnerability, prevalence, and 
demand estimation. Measures of performance and effectiveness 
need to be developed alongside research initiatives so that 
they can impact these investments, and the resultant 
capabilities can assist.
     Six, we need to address the existing technology gaps 
today, including developing capabilities to automate time-
consuming analytical tasks and reduce workloads for 
investigators and prosecutors; enhancing financial 
telecommunication and forensics device evidence analysis; 
establishing repositories of tools, evidence templates, and 
trafficking signatures to be shared among organizations; 
improving the standardization, completeness, and consistency of 
trafficking data collection; and establishing incentive 
mechanisms to greater enable data-sharing.
     Human trafficking is a challenging and pervasive problem 
that necessitates broad action and bold ideas. Thoughtfully 
designed technology can empower the collective human 
trafficking community to disrupt these illicit operations. 
Increased R&D holds the potential to make a tremendous impact 
by accelerating justice and hastening the healing of victims.
     I want to thank you for your interest in this pressing 
issue and for the opportunity to speak with you today. Thank 
you.
     [The prepared statement of Mr. Daggett follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
     Chairman Foster.  Thank you. And next is Ms. Kennedy, now 
recognized for 5 minutes.

                 TESTIMONY OF MS. EMILY KENNEDY,

           PRESIDENT AND CO-FOUNDER, MARINUS ANALYTICS

     Ms. Kennedy.  Chairman Foster, Chairwoman Stevens, Ranking 
Members Norman and Baird, and Members of the Subcommittees, 
thank you for the opportunity to appear before you today to 
discuss the role of artificial intelligence in fighting human 
trafficking. My name is Emily Kennedy, and I am President and 
Co-Founder of Marinus Analytics.
     Sex trafficking is rape for profit, and it's one of the 
most egregious crimes of our time. I first encountered human 
trafficking when traveling through Eastern Europe as a 
teenager, and I knew that I had to spend my life doing 
something about it.
     What started as my student project in Carnegie Mellon 
University robotics resulted in a tool that has helped identify 
an estimated 6,800 victims of sex trafficking just in the last 
2 years. My company Marinus Analytics develops AI for social 
impact. Our flagship software Traffic Jam is an AI-based 
investigative tool used by law enforcement across the United 
States, Canada, and the U.K. to identify sex trafficking 
victims and dismantle organized criminal networks. It's also 
used by nonprofits like the National Center for Missing and 
Exploited Children (NCMEC), which uses Traffic Jam to process 
the approximately 10,000 child sex trafficking reports they 
receive every year.
     Traffic Jam looks at data across publicly available online 
classified ads like the ones as notorious as Backpage.com where 
their victims are advertised. We see millions of data points 
weekly here in the United States. This activity is far too 
extensive for investigators to process manually, and it makes 
it easier for traffickers to stay hidden in the data.
     Traffic Jam leverages AI to find patterns that aid in 
victim recovery and help reveal massive organized criminal 
networks. For example, the tool can identify trafficking rings 
operating across cities and States and help prioritize leads 
for critical resource planning.
     Traffic Jam helps narrow the scope of relevant information 
to an amount that is manually digestible. It brings to light 
the most potentially actionable leads for an investigation, and 
it often cuts down investigative time from months to days for a 
fraction of the cost of a full-time equivalent.
     In addition to helping find missing kids, we also identify 
organized crime groups exploiting dozens or even hundreds of 
victims. As a result of one of the leads that we generated, an 
organized crime ring was indicted in early 2019 for trafficking 
Chinese foreign nationals for sex in 12 U.S. cities and 
Toronto. The sting operation successfully took down nearly 500 
website domains and computer systems that logged more than 
30,000 customer phone numbers.
     The COVID-19 pandemic has increased the economic risk for 
already-vulnerable persons to fall into human trafficking. We 
saw at most about a 20 percent drop in activity over the first 
half of this year, and activity has since grown back to near 
normal levels. This could suggest new entrants into this space 
despite increased physical risks, and it could also suggest an 
increased reliance on digital forms of commercial sex.
     Traffic Jam provides reports that highlight recent 
potentially vulnerable entrants into commercial sex during the 
lockdown, and by pairing this with victim-centered training, we 
help promote safeguarding during the pandemic.
     There are also frequent upheavals in the online space. 
When Backpage.com was shut down, illicit activity rapidly 
shifted to a variety of smaller websites. But within 6 months, 
we saw the total activity on these websites surpass the volume 
on Backpage in the month before the shutdown. Many 
investigators had cases whose online presence went cold when 
they couldn't easily go to Backpage to find new activity, but 
we were able to quickly help them navigate this new 
environment.
     And recently, we have seen new challenges in a flood of 
phishing and cyber fraud online. Money made from these schemes, 
in addition to money laundering of sex trafficking proceeds 
often fund organized crime. More research and development are 
needed here to identify and combat the funding channels 
sustaining organized crime groups.
     All of this would not have been possible without the 
support of the National Science Foundation, who believed in our 
mission of AI for social good. The NSF bridges the crucial gap 
between scientific research and operational impacts. We 
participated in the NSF I-Corps program before receiving 
funding and found it invaluable. The I-Corps program meets a 
crucial need for commercialization of university research 
because it provides a training ground before entrepreneurs 
launch.
     The funding we received through the NSF SBIR (Small 
Business Innovation Research) has also been crucial to our 
success. SBIR focuses on high-risk, high-reward research, which 
is important because criminals move so fast online that 
innovation is needed to keep pace. Now that we have grown from 
a startup to a small business, we would encourage you to help 
NSF and the SBIR program provide more exposure to potential 
Federal Government customer relationships and reduce 
procurement challenges for up-and-coming businesses who serve 
the public sector. We also encourage continued authorization of 
funding for NSF to do this work because it is driving the 
ingenuity that we need to solve these serious, worldwide 
problems.
     I look forward to your questions. Thank you.
     [The prepared statement of Ms. Kennedy follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
     Chairman Foster.  Well, at this point we will begin our 
first round of questions. The Chair will now recognize himself 
for 5 minutes.
     And, first, we have to thank Ms. Rajan for her shout out 
for homomorphic cryptographic systems. This, I think, is our 
second Subcommittee that I've chaired that has actually dealt 
with this issue, which is the solution--the potential solution 
for a large number of problems we face trying to strike the 
right balance between privacy and detection of criminal 
activities.
     And so although the problem of human trafficking is 
certainly not a new one, there are modern technologies, you 
know, things like online marketplaces and so on----
     Voice.  Chairman Foster----
     Mr. Weber.  Hey, Bill----
     Voice [continuing]. I think we may have another witness.
     Chairman Foster.  Whoops. Oh, I am terribly sorry. OK. 
Thank--you know, I--all right. My apologies. And so I will now 
recognize Ms. Darnton for 5 minutes, and my apologies.

                TESTIMONY OF MS. HANNAH DARNTON,

           ASSOCIATE DIRECTOR OF ETHICS, TECHNOLOGY,

      AND HUMAN RIGHTS, BUSINESS FOR SOCIAL RESPONSIBILITY

     Ms. Darnton.  Not a problem. Thank you so much. Good 
morning, Chairman Foster, Chairman Stevens, Ranking Members 
Baird and Lucas, and Members of the Subcommittee. And thank you 
so much for having me here today.
     I am Hannah Darnton from Tech Against Trafficking, and 
Tech Against Trafficking is a coalition of technology 
companies, including Amazon, AT&T, BT, Microsoft, and 
Salesforce.org that are collaborating with global experts to 
help eradicate human trafficking using technology. Launched in 
2018, the goal of Tech Against Trafficking is to work with 
civil society, law enforcement, academia, and survivors to 
identify and support technology solutions that disrupt and 
reduce human trafficking that prevent and identify crimes and 
that provide remedy mechanisms for victims and survivors.
     To inform the development of Tech Against Trafficking's 
long-term strategy, our first step was actually to map the 
landscape of existing technology tools being used to combat 
human trafficking. Together with partners, we've actually 
identified over 305 antitrafficking technology tools across a 
range of geographies, target users, and focus areas. The tools 
range from simple mobile apps informing vulnerable communities 
and individuals at risk of labor exploitation to more advanced 
technologies such as satellite imagery and geospatial mapping 
tools being used to track down fishing vessels engaged in 
illegal activity. We also identify tools using facial 
recognition and blockchain, big data analysis, and 
visualization.
     Beyond individual organizations, technology presents a 
massive opportunity for the broader antitrafficking field. 
Technology can help disparate actors connect across 
geographies, share data to facilitate the identification and 
victims of traffickers--victims and traffickers, and improve 
case management and survivor care, as well as raising awareness 
in at-risk communities.
     However, as was stated earlier by earlier panelists, the 
antitrafficking ecosystem is largely siloed. In collaboration 
and engagement between organizations, deploying these 
technologies is minimal. Efforts are often duplicated, and 
opportunities for new solutions are missed due to lack of 
information about similar initiatives, the lack of shared or 
compatible data, nominal technical infrastructure and 
expertise, and a dearth of sustained funding and support.
     As an example, our mapping identified approximately 70 
unique technology tools developed for the purpose of victim or 
trafficker identification. Our goal at Tech Against Trafficking 
is to help support the work of individual organizations looking 
to more effectively utilize and deploy technology to advance in 
skill their work by simultaneously creating the connective 
tissue to bring together organizations and technology tools 
operating across antitrafficking sectors and lead them to 
systems-level change.
     To this end, in 2019 we launched the Tech Against 
Trafficking accelerator program. This accelerator advances and 
scales the work of selected organizations deploying promising 
technology solutions by providing resources and support from 
our member companies while building an ecosystem of actors that 
will provide ongoing support for the participating 
organization.
     For the inaugural Accelerator, the Tech Against 
Trafficking members and advisors worked with the Counter 
Trafficking Data Collaborative, CTDC, an initiative of the 
International Organization for Migration, to explore and 
promote best practices around data anonymization, privacy, and 
security, and I'm happy to provide more information on this if 
needed.
     Beyond the Accelerator, we've published findings from our 
landscape analysis in an interactive map on the Tech Against 
Trafficking website and partnered closely with the OSCE, the 
Organization for Security and Cooperation in Europe, to put out 
a seminal publication in June on the use of technology to fight 
trafficking in human beings. While I'd recommend reading the 
full paper to glean insights from the research, we do have a 
number of specific points that we'd like to highlight for 
government actors looking to support technology in the field.
     The first is the need for ongoing technical support. 
Technology often acts as a multiplier effect in terms of 
organizational impact, but many of the civil society 
organizations, nonprofits developing and deploying these tools 
have limited capacity, resources, and personnel, which creates 
barriers and challenges to taking on and maintaining effective 
technology and scaling it. The maintenance of such tools is 
particularly important. Organizations often receive funding to 
use or develop technology. However, without that ongoing 
resource and support, they often have difficulties keeping the 
technology up-to-date and operational, iterating it and 
customizing it to become more effective, and it severely 
inhibits the usage, utility, and impact of such a tool. The 
government can play an enabling role here by building the 
capabilities and relationships between stakeholders that 
facilitate the effective use of these technologies.
     Furthermore, we'd like to see active engagement and 
participation of those closest to the issues. Those who are 
funding, developing, and implementing technology-based 
solutions should ensure the active engagement and participation 
of vulnerable populations and target groups through the design, 
development, and deployment of solutions. We also want to make 
sure these technologies are fit-for-purpose, addressing the 
problems at hand, that we're looking at the limitations of what 
technology can do. They can't substitute for the range of other 
factors needed to effectively combat trafficking, and that we 
consider the easy solutions.
     So a range of tech solutions are needed in this space, 
many actually, WhatsApp, Facebook Messenger, dedicated SMS 
(short message service) channels allow multiple avenues to 
communicate with victims seeking assistance, and these simple 
solutions can provide straightforward ways for victims to 
communicate in real-time with service providers or personal 
support networks. And the organizations are looking for simple 
tech solutions or focus on the underlying infrastructure that 
would allow them to use technology effectively.
     And finally, and perhaps most importantly, we'd like to 
look at due diligence of these solutions. The provision of such 
technologies must be accompanied with training not only for the 
direct use of tools but for their ethical use with respect of 
human rights and data protection. Due diligence should be 
conducted on all technologies deployed by government, law 
enforcement, and service providers to identify, avoid, address, 
and mitigate potential adverse human rights impacts that may 
arise from the use of these technologies in accordance with the 
U.N. Guiding Principles on Business and Human Rights. I'll stop 
there.
     [The prepared statement of Ms. Darnton follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
     
     Chairman Foster.  Well, thank you. And my apologies again 
for making a mistake in the order. I will try to limit myself 
to a little less than the 5 minutes that I normally take here.
     And maybe I'll just sort of cut to the chase of one of the 
things. A number of the Members here wrestle with the issue of 
the tradeoff of privacy in payments versus--you know, versus 
the need for law enforcement to actually see what's going on. 
And we wrestle with that in Financial Services, as well as the 
Science Committee.
     And so I guess if all the witnesses here could comment on 
whether you think that eventually we're simply not going to be 
able to allow anonymous cryptographic payment tools that are 
truly anonymous or whether we're going to have to be in a 
situation where you can go to a trusted court system, 
demonstrate probable cause, and unmask the participants in a 
digital payment transaction. How do all of you individually, 
collectively, see that tradeoff, and what--the endpoint we're 
going to have to go to there? Yes, just pick it up. I'll pick 
on someone or--Ms. Rajan, I bet you've thought about this.
     Ms. Rajan.  Sure. I think you bring up a great point about 
the use of cryptocurrency in human trafficking. Like in many 
criminal enterprises, human traffickers have adopted the use of 
cryptocurrencies to finance their operations. And 
cryptocurrencies are appealing for many reasons. First, the 
decentralized nature means there's no central authority that 
can shut down or freeze funds. And second, it provides a 
certain level of anonymity because you can create a Bitcoin 
address and receive tokens without needing to provide a valid 
name or address.
     According to a company called Chainalysis, which is a tech 
company that analyzes blockchain data, there was nearly $1 
million worth of Bitcoin and Ethereum payments in 2019 for 
child sexual abuse material.
     This isn't unique to human trafficking. We've seen this in 
domestic terrorism and extremism. In fact, the House Committee 
on Financial Services had a hearing earlier this year about the 
financing of domestic terrorism and extremism, and one of the 
recommendations presented at the hearing was that 
cryptocurrency providers should ban extremist organizations 
with the intention of cutting off their financial supply. And 
one could argue that it would--you can make a similar 
recommendation for human trafficking.
     But there is a lot of limitations to that recommendation. 
First, I think it would--some cryptocurrency advocates would 
argue that it really violates the intended value proposition of 
a decentralized currency, and private-sector stakeholders are 
very likely to push back on this regulation. Second, it merely 
treats the symptom, not the root cause. Bad actors will 
continue to find new and illicit ways to finance their 
operations. But, most importantly, eliminating access misses 
the very significant opportunity to leverage the technology's 
properties to solve the primary problem of dismantling human 
trafficking networks altogether.
     As I mentioned earlier, the unique properties of 
blockchain technology actually allow us to fight against human 
trafficking. Even though cryptocurrencies are anonymous, part 
of what drives the consensus around the legitimacy of the 
currency is that the transactions are permanently stored on a 
very public, decentralized immutable ledger, so, again, if law 
enforcement can uncover the Bitcoin wallet addresses, you can 
actually map the whole network of a human trafficking ring and 
ultimately dismantle a human trafficking crime network.
     Chairman Foster.  Yes, that is true, and we have to speak, 
I guess, carefully because we can have very interesting 
classified briefings on the extent to which Bitcoin is truly 
anonymous. But the--there are next-generation cryptographic 
currencies that will be much closer to truly anonymous. And so 
the question is will we ultimately have to ban these as an 
essential part of preventing things like money laundering? 
Just, you know, what do you think the endpoint of that 
discussion is? You know, if you were in charge, anyone of our 
witnesses here, that if you were in charge of making a 
decision, should we ultimately have to ban truly anonymous, you 
know, value transactions? Or not? It's a tough one. All right. 
Matthew, I'll pick on you.
     Mr. Daggett.  OK. I'll try and take a stab at that. One of 
the things I would like for--to keep in mind is thinking about, 
you know, measures and counters. So when there was pressure put 
on Backpage to--for the credit card providers to stop accepting 
credit card payments, some of that moved to Bitcoin. The same 
thing when Backpage was taken down, you know, the--some of that 
activity scattered away from one large site to many smaller 
different sites.
     So thinking about when you apply this Darwinian pressure 
to any one facet of this problem, you need to be thinking about 
what do you think that the next--you know, the primary and 
secondary effects are going to be from a policy initiative or 
some type of, you know, enforcement action.
     The other thing to keep in mind is that because of the 
democratization of technology and how a low barrier to entry it 
is to get into this crime, you know, the saying used to be the 
cost of a Backpage ad and a burner cell phone and you 
essentially have a trafficking operation. There is still 
tremendous money being moved around in all cash, laundered 
through gift cards, as well as using, you know, money remitters 
for some of the more international ones, so it's----
     Chairman Foster.  OK.
     Mr. Daggett [continuing]. Important to kind of--they won't 
be the most sophisticated actors. There will be a range of 
different actors.
     Chairman Foster.  OK. Thank you. And I will now recognize 
Ranking Member Norman for 5 minutes.
     Mr. Norman.  Thank you, Chairman Foster.
     This is for Ms. Darnton. Ms. Darnton, the exploitation of 
children is huge in my district. With COVID-19, schools not 
being in session, the FBI (Federal Bureau of Investigation) has 
issued a warning about the closings. What measures are we 
taking to protect the children from sexual exportation when 
many times the parents are working and are just not there?
     Ms. Darnton.  Thank you so much for the question. I think 
we've done a fair amount of analysis on the effects and impacts 
on human trafficking due to COVID-19. We have seen indications 
of a rise in online sexual exploitation of children. As you 
mentioned, the FBI has warned that the school closings have led 
to additional cases of exploitations. And, similarly, 
traffickers living with their victims, they expand to new forms 
of abuse, including online live-streamed exploitation of 
current victims.
     We have not looked into all of the different ways in which 
this can be combated to date, so Tech Against Trafficking 
really focuses on how the tech industry as a whole can come and 
leverage its support and use of this technology, and I think 
that this is something that still needs to be explored. But I 
am unable to speak to the specifics of individual member 
companies who I think are tackling this on an individual level.
     Mr. Norman.  OK. And I guess, Ms. Darnton, the other 
issues you highlighted, the importance of safe data-sharing to 
take a look at the practices that are put into effect, you 
identify the challenges of protecting the privacy of 
trafficking victim data. Can you tell us how technology is 
being leveraged to establish the privacy-preserving data 
methods and instilling confidence in victims to come forward 
because many of these victims just will not come forward from 
what I'm told because of the stigma that they're branded with 
for life.
     Ms. Darnton.  Yes, happy to expand on that. So we actually 
worked on data privacy-preserving mechanisms in our first 
Accelerator program last year with the Countertrafficking Data 
Cooperative out of Iowa. And one of the important areas that we 
see is that really the case data on individual victims of 
trafficking, we need to be able to share it and publish such 
data, but this publication and sharing poses risks to the 
victims represented within the data sets, so we're looking at 
kind of data at a larger scale. And this includes the privacy 
risk of individuals, as you mentioned, being identified within 
the data, as well as the safety risk associated with 
traffickers identifying victims within the data and retaliating 
against the victims, their friends, families, or their 
community.
     So despite these risks, it's crucial to develop safe forms 
of data-sharing that allow for evidence-based policy and 
practice. Without access to data on the prevalence and nature 
of trafficking in different contexts and over time, it's 
difficult to make decisions about how and where to allocate 
resources for maximum impact. So data-sharing agreements may 
sometimes be possible between frontline organizations or an 
individual victim perhaps that capture data on the victim's 
trafficking and the government, law enforcement, and civil 
society organization that need to access and analyze such data.
     However, it is typically not possible to complete such 
agreements at the speed and scale needed for comprehensive and 
current overview of the problem. There's always going to be the 
data gap between prospective providers and consumers of 
sensitive data unless we can create a scalable data-sharing 
solution with guaranteed privacy protection.
     So through our research, one of our member's research team 
worked with the U.N. Migration Agency to develop a new form of 
data anonymization and analysis directly targeting the needs of 
the counter trafficking community so that the primary risk is 
that traffickers will identify victims in published data based 
on identifying combinations of attributes like age, gender, 
citizenship, as well as recruitment, trafficking, and control.
     The solution asserts that only common attribute 
combinations appear in published data sets and therefore cannot 
be linked to the individual or even small groups of 
individuals. This is achieved through combined use of synthetic 
data, precomputed statistics, and interactive visual 
inferences--interfaces rather, enabling exploratory analysis 
and accurate reporting without exposing any data on actual 
identifiable individuals.
     So we've actually published a paper that shows the new 
mechanisms and ways to do this, and we're happy to go into 
further detail.
     Mr. Norman.  Well, thank you so much. I want to thank all 
of our witnesses today for taking time. This is a sad yet it's 
a real problem all over this country. I yield back.
     Chairman Foster.  Thank you. And I will now recognize 
Chair Stevens for 5 minutes.
     Ms. Stevens.  Thank you, Chairman Foster.
     Emily, how did you get involved with combating human 
trafficking? I'm reviewing your bio and looking at your story 
and particularly you're an example of technology transfer if 
you think about it. You were at the university level, and you 
basically spun out this enterprise utilizing some of the best 
applications and technology, just to speak bluntly about it. 
But how did your work lead you to this field? And what promise 
and opportunity do you see in utilizing these technology 
applications to combating human trafficking?
     Ms. Kennedy.  Absolutely. Thank you for the question. So 
my story personally of getting into this is a very windy story. 
I, unlike most of the other people on the witness panel, do not 
have a technology background. I--as I mentioned in my 
testimony--encountered what I was told was human trafficking in 
Eastern Europe when I was 16, and it honestly just kind of 
burned it into my brain that this kind of thing existed.
     And so I knew, you know, going into high school and then 
college that I wanted to focus my career on it, but I didn't 
know what that would be. I had kind of assumed law school. I 
was studying the humanities, and it was really due to the--
first, the interdisciplinary nature of Carnegie Mellon that I 
started to--it was around the time that Backpage became the 
most popular website. And I was looking at sex trafficking 
online, and there wasn't a lot of study around it and decided I 
wanted to focus my senior honors thesis on how can we use 
online data to fight human trafficking.
     And so I basically took that to my humanities advisor, who 
then referred me to an advisor in the Robotics Institute 
because he said you're going to need some technology behind 
this. And back then I didn't know what machine learning was. I 
didn't know much about AI and was kind of thrown into the deep 
end of how it might be able to solve some of these problems. 
And so at the same time I connected with local law enforcement, 
as well as Pittsburgh FBI at the time and started to learn the 
challenges that they were having on the enforcement side and 
trying to identify victims.
     So I kind of have always been a connector between the 
technology people who have the tech that can solve problems and 
the people on the ground who need it. And as I refer to my 
testimony regarding NSF, I have too often seen that gap where 
there is awesome technology and research, there's amazing 
technology being published or it's in a lab, but my question 
was always how do we get this on the ground, you know, making a 
difference. So that has really been a big mission of mine.
     And I think there's a lot more opportunities to kind of 
speed up that process to get technology out of research and 
into the hands of people who can use it.
     Ms. Stevens.  And, Anjana, who--could you give us--with 
your work at Polaris, could you give us--and thank you for 
that, Emily. That was very lovely and such a--we're going to 
thank your linguistics professor. That's really just--we'll 
connect more on that offline. But I wanted to get Anjana in 
here as well just with some concrete examples and an 
understanding of human trafficking in the United States so that 
we can best understand when we talk about data sets and the use 
of technology applications and how complex this is, what is 
the--if you know this, Anjana, what's the average age of an 
individual in the United States who is human trafficked? What's 
the profile? And what is the size of the human trafficking 
groups that are in the United States? And are they sometimes 
run by foreign operators that are infiltrating our country or 
are they homegrown operations? And I could ask another 
question, but I'm going to stop there.
     Ms. Rajan.  Thanks for the question. I think the most 
important thing to recognize is that trafficking is not a 
monolith. At Polaris, we cover all forms of trafficking, 
including sex and labor. A few years ago we put out a report 
looking at the topology of the types of human trafficking, and 
in our research we learned that there were over 25 types of 
human trafficking and that they came in different forms of how 
force, fraud, and coercion were applied to victims, the 
demographic of victims themselves, and how they were recruited. 
And I can certainly send you that report after the hearing if 
you'd like to see more information.
     Ms. Stevens.  Great. Well, thank you. Mr. Chair, I'm out 
of time, OK. I'm going to do some questions for the record 
because there's a lot here. This has been amazing. Thank you 
all. Thank you for all--the testimonies have just been 
fabulous. Thank you guys. I'm yielding back.
     Chairman Foster.  If Members--I'd just say if Members are 
interested in hanging around for a second round of questioning, 
we'll evaluate that toward the end of the first round of 
whether that's a feasible possibility.
     I now recognize Ranking Member Baird for 5 minutes.
     Mr. Baird.  Thank you, Mr. Chairman.
     Ms. Kennedy, in your testimony you mentioned that your 
company has received support from the National Science 
Foundation both through the participation in I-Corps and the 
SBIR award. Can you tell us a little bit more about how the NSF 
has both helped advance your Traffic Jam software, as well as 
support your mission of AI for social good? And can you 
describe how invaluable it is for NSF to continue to support 
work like yours in the counteracting of human trafficking? Ms. 
Kennedy?
     Ms. Kennedy.  Absolutely. Yes, thank you for the question. 
So we received the SBIR phase I, phase II, and phase IIB, about 
$1.4 million in funding total. A little note I like to mention 
is that we actually did not receive it the first time we 
applied. It was good vetting on their part, and they gave us 
feedback on how to improve and we got it the second time, so it 
taught us not to give up.
     And it was amazing to help especially the I-Corps program, 
to help us learn as university researchers about customer 
discovery, commercialization of technology because myself, 
along with pretty much everyone else in my cohort, had been 
deep in research but had no idea about how to run a business, 
start a business, you know, understand the market, things like 
that. And it's a very different mindset from the researcher 
mindset. So I learned so much from the other students in the 
program. And, like I said, it was really invaluable to our 
success, not just the funding but also the training that came 
along with it.
     So we were funded for the first couple awards to focus on 
de-obfuscation of sex trafficking on the public web, so 
basically finding patterns in the structured data where the 
criminals were trying to remain anonymous and kind of pulling 
out those patterns.
     And then for phase II we're now expanding into the human 
services space, and so this involves mining unstructured data 
for insights from thousands of pages of social worker case 
notes to help them measure trends and progress, provide 
proactive insights, and generally, you know, in the context of 
this conversation, help them intervene and prevent children 
from falling into exploitation in the first place.
     So we are really, really happy and honored to be involved 
with the NSF SBIR program. It's been game-changing for our 
company, and I think it allowed us that opportunity to learn 
how to commercialize research and also do the kind of high-
risk, high-reward research and development that was needed in 
order to put out these tools. It's very difficult, particularly 
for socially impact-focused companies to have that research 
funding that they need to get off the ground because often 
that's needed before you can actually produce a product. So the 
SBIR program was very, very helpful for us, and we're honored 
to be involved.
     Mr. Baird.  Thank you very much. Well said. Mr. Chairman, 
I can't see the clock. How much time do I have left?
     Chairman Foster.  One minute and a half.
     Mr. Baird.  A minute and a half. So here's my question for 
the other three witnesses, and we've got a minute and a half, 
so that's 90 seconds, right? OK. Many times the things that 
we're responsible for in these two Committees involves basic 
research. Sometimes it's the areas that industry can't justify 
getting involved in but we can put some dollars there to do 
some of this basic research.
     So my question to the other three members is what areas of 
basic research do you think would provide the most impact on 
expanding the use of emerging technologies to counter human 
trafficking? So I used about 20 seconds of that I'm assuming, 
so we've got about a minute left for the three of you.
     Ms. Darnton.  I'd like to take a first response. I'll keep 
it brief. But something that Matthew mentioned earlier was 
measuring the impact of the use of these technology tools. And 
I think that there's a lot of research needed. So often, the 
tools themselves, the deployment of technology is seen as the 
solution, but really it's contributing to part of the solution. 
It's not a solution in of itself. We still have to track what's 
happening, how it's supporting the field, and what additional 
support is needed, and I think that there could be a lot of 
research around that impact of technology.
     Mr. Baird.  Dr. Daggett?
     Mr. Daggett.  Well, I would agree with that. I do think, 
you know, grappling with the scope of the scale of the problem 
and understanding, you know, how we are actually making inroads 
against it is critical, and that's something that does happen 
at the basic level. And I also think there's a fair amount that 
is also needed to come at the next phase of research and more 
at the advanced level for some of the other science and 
technology directorates.
     Mr. Baird.  So, Mr. Chairman, have I got time for Ms. 
Darnton?
     Chairman Foster.  Yes, we'll--yes, briefly, very briefly.
     Mr. Baird.  Ms. Darnton?
     Ms. Darnton.  Oh, sorry, I was the first one.
     Chairman Foster.  Yes.
     Mr. Baird.  Oh, Rajan, I'm sorry.
     Ms. Rajan.  Sure, no problem. Yes, I think if we're going 
to think about funding and technology and development for this 
phase, I think there are four key principles we should keep in 
mind. I think, first, we need to ensure that the technologies 
are serving the overarching goal of ending trafficking. I think 
we most importantly need to center the needs and experiences of 
victims and survivors. We need to enable the correlated scaling 
up technologies that are evidenced-based. And then, finally, 
any support for new technology should be in addition to 
continued funding for key services to prevent trafficking and 
support victims and survivors.
     Mr. Baird.  I thank all of you very much, and I yield 
back.
     Chairman Foster.  Thank you. And we'll now recognize 
Representative Lipinski for 5 minutes.
     Mr. Lipinski.  Thank you, Mr. Chairman. And before I start 
on my questions, I just want to say, Ms. Kennedy, for the last 
eight and half years, as the Members of this Committee know, 
I've spent a lot of time talking about I-Corps and the 
importance of I-Corps, and you just did an excellent job there, 
your testimony about the benefits of I-Corps, and I'm very glad 
that it has been helpful to you and to your company.
     I want to thank the Chairmen, Chairman Foster and also 
Chairwoman Stevens, for holding this hearing today. I think 
this is an issue that most people have no idea what a huge 
problem this is. They may hear about it, but they probably 
don't understand the scope of it.
     And I was really struck--I remember I was listening to the 
radio a couple years ago, and I heard a statement, and I 
looked--I'm not sure if it came from Andrew Forrest, but I know 
that Andrew Forrest, who is the founder of the Walk Free 
Foundation, has stated, ``We now have the largest number of 
slaves on earth that we've ever had in human history.'' And 
that really struck me, that this is going on, and there's so 
little that most people know about it.
     So I thank all of you for the work that you are doing.
     There's a lot of recommendations that we have heard from 
all of you, and I sit here and I wonder, you know, maybe this 
really should be an answer that--a question for us on the 
Members of the Committee, but I want to look to our witnesses, 
you know, why have we not done more about this problem from 
your perspective? You come to us with what we can do better, 
what the government can do better. Do you have a sense of why 
more has not been done? You know, specifically, this is about 
technology but on technology and other things that we can do to 
help combat human trafficking. So let's start with Ms. Rajan. I 
just--any ideas that you have.
     Ms. Rajan.  I think, again, the most salient point here is 
that human trafficking is a systems problem and requires us to 
understand the data. I think a fact that's not well-known is 
that victims of human trafficking are the most likely party to 
be criminalized when prosecuting these cases. I think we need 
to really zoom out and think about what is a more systems-
driven approach to solving these problems.
     When we think about the criminal justice side of it, I 
think many law enforcement entities don't regularly pursue 
financial investigations on human trafficking cases and thus 
fail to penalize the most profitable traffickers. So I think 
one way we can really shift--restore balance--the balance of 
power back to survivors is looking to seek support, enable and 
pursue human trafficking-related prosecutions that disrupt the 
profitable, large, organized sex and labor trafficking 
enterprises because, one, I think the main thing here is that 
the financial crimes approach human trafficking can actually 
just put the pressure off of victims because they are not 
relied on to cooperate in these cases, which can be very 
traumatizing. And so I think there's--again, looking at one of 
the ways that we think about all of the things that not just 
result in trafficking but what are the conditions that actually 
drive survivors and victims into positions of being exploited 
in the first place?
     Mr. Lipinski.  Thank you. Mr. Daggett?
     Mr. Daggett.  Well, first, I'd like to agree with all that 
was just said. I think that it's, you know, right to the point.
     That said, I do agree that we need a coordinated Federal 
strategy to really go after those high-impact quick wins first 
and then start to do the longer-term foundational funding and 
things that are going to take many years of effort year-to-year 
to get real solutions to.
     I think, you know, in those regards it's just a--it's 
critical that we have both to go with the strategy, the 
increased level of funding and prioritization that shows when 
we take on initiatives across the different, you know, science 
and S&T organizations, where those pieces of the puzzle fit in 
the overall broader strategy. So I totally agree it is a 
systems problem. We have to think about it systematically and 
analyze it systematically.
     Mr. Lipinski.  Ms. Kennedy?
     Ms. Kennedy.  To add to what's already been said, I think 
there's also just generally a public kind of lack of 
understanding around AI. And, again, I'm saying this as a 
generally non-technical person who can communicate about these 
things, either thinking that AI is too advanced or not advanced 
enough, maybe more advanced than it really is, so I think just 
general understanding and education around what's really 
possible would be help.
     And then to add to what Anjana said, I agree about going 
after the largest financially benefiting groups in this, and 
that's what our recent deployment in Traffic Jam earlier this 
year through a graph data base helps do. It actually pulls out 
largest groups in the data. And we're currently looking for 
Federal partners who want to pick up those investigations and 
prosecute them. And, you know, the technology also does help 
take the pressure off of victims like Anjana said, which is 
really important because we don't want the burden--full burden 
of proof of a case to be on the victim. And this is where the 
online evidence can really help.
     Mr. Lipinski.  Thanks. And, Ms. Darnton?
     Ms. Darnton.  Yes. First, I'd just say I agree with all of 
the other panelists, and I'd say there seems to be thus far a 
need for enhanced collaboration. Right now, we're seeing a lot 
of highly distributed funding and lack of coordination. And I 
think to solve this problem we really need to bring in 
academia, consumers, companies, law enforcement, government, 
and create a space where everyone can work together rather than 
in a siloed approach.
     There's no silver bullet to human trafficking, and so we 
need to increase the support for the infrastructure that will 
allow for technologies, especially innovative technologies, to 
be successful. And a lot of that groundwork needs to be built 
before they can actually be further used and developed.
     I'd also say that simultaneously we need to address the 
key drivers of vulnerability, so a lack of economic 
opportunity, a lack of access to education can often drive 
people into situations of exploitation, and we need to think 
through how we can solve those while simultaneously looking at 
creative and new ways to deploy tech.
     Mr. Lipinski.  Thank you very much. Thank you, Mr. 
Chairman. I yield back.
     Chairman Foster.  Thank you. And Ranking Member Lucas will 
now be recognized for 5 minutes.
     Mr. Lucas.  Thank you, Mr. Chairman. And I would say that 
not only the oral testimony today but the written testimony 
submitted by all of our panelists is very compelling.
     And I'd like to focus for a moment, Ms. Rajan, on your 
written testimony. You make it very clear that trafficking is 
an inherently commercial enterprise, that financial 
intervention in human trafficking has the potential to increase 
the risk for traffickers, reduce the profit, and reduce the 
vulnerability to trafficking within particular communities.
     Then you describe how Polaris has partnered with PayPal to 
create the first financial intelligence unit housed within an 
antitrafficking organization. I'd like to get your thoughts on 
how that partnership has worked between Polaris and PayPal. Is 
it working as you envisioned? And, if so, is it an effort that 
could be scaled to more broadly impact the financial side of 
illicit trafficking?
     Ms. Rajan.  Thank you so much for your question. The work 
we're doing at PayPal is very cutting-edge because we're the 
first antitrafficking organization to house a financial 
intelligence unit in-house. And this work is actually quite 
nascent. And because I lead our technology group, I'd love to 
connect you with our Director who actually runs that program.
     But I think you're touching upon a broader question, just 
how can we scale these technologies in the fight against human 
trafficking? And I think one of the key problems that we're 
seeing is there are organizations that have deep subject matter 
expertise on human trafficking, and then there are tech 
companies with deep knowledge expertise on how the technologies 
work. And there are very few that are able to do both. And 
Polaris is unique in the sense that we do have our team that 
does understand deeply how human trafficking works. We have 
technologists and engineers and data scientists who understand 
the technology and, most importantly, we have survivors at our 
organization who understand what survivors and victims actually 
need. But that requires funding, and that requires investment 
to be able to bring these two disciplines together.
     And I think it's really important and I just wanted to 
agree with what my fellow panelists have been saying, that what 
we've been seeing in this movement is just really an 
understanding of the problem, and now we need to continue to 
fund the creation of solutions, which requires support from the 
public and private sector.
     Mr. Lucas.  Absolutely. Ms. Kennedy, in your written 
testimony you stated more research and development funds are 
needed to identify and combat illicit funding channels that 
sustain organized crime groups. Where could this funding come 
from, and what types of research and development should we be 
looking into? And is there space for technology to be developed 
to help detect and disrupt? That's a very open-ended question--
--
     Ms. Kennedy.  Absolutely.
     Mr. Lucas [continuing]. But your insights are broad.
     Ms. Kennedy.  Sure. Thank you for the question. So I can 
tell you a little bit about the types of cyber fraud that we're 
seeing, which I think is just one slice of what some of the 
other panelists are probably also seeing. So when we're looking 
at these online classified ads, we're seeing a recent increase 
in fraudulent postings, so this is, for example, where someone 
might copy and paste the same ad selling commercial sex 
across--and it's posted across every single city in the 
country, and it's posted at the same exact time on the same 
exact day. Now, that's likely not a real group that's offering, 
you know, typical services, and it may not even be a 
trafficking group that actually has a group of victims that 
they are exploiting. This is an example, we believe, of 
automated phishing and cyber fraud. So the idea is that 
potential buyers might contact that ad, give their payment 
information, and then someone on the other end will take the 
money and provide no services.
     And the thing about this and why we think it matters is 
that it's automatable, and therefore, it's scalable. So these 
groups can actually take in a large amount of financial proceed 
at a large scale and, like I said, post it all across the 
country. And so we currently have the ability to pretty much 
tell the difference between quote/unquote real human activity 
and this kind of automated cyber fraud activity.
     And as far as next steps, we're currently looking into 
Federal partners, probably State prosecutors perhaps, who want 
to turn these leads into full-scale investigations because 
obviously that's not what we do.
     And then I think as far as what research is needed, I 
think there's just more research needed to understand the 
problem so that we can prevent it because obviously right now 
we're talking about a reactive response. So I think there's 
more research to be done around the prevention side.
     Mr. Lucas.  Absolutely. Thank you very much. And Mr. 
Chairman, my time is expired, and I yield back nothing.
     Chairman Foster.  Thank you. Representative McAdams, 
you're recognized for 5 minutes.
     Mr. McAdams.  Well, thank you, Mr. Chair, and I appreciate 
our Committee's attention to this really pressing issue of 
human trafficking, particularly the horrible new ways that 
perpetrators have found to target and to exploit children 
online.
     I'm sure that most of the panelists here are familiar with 
The New York Times series that began reporting last year on the 
surge in online child sex abuse and materials, the first time 
that many in the general public I think became aware of the 
scope of this issue. And The Times reported that in 2018 there 
were a record 45 million reports of online child sex abuse 
materials to the National Center for Missing and Exploited 
Children. NCMEC reported that in 2019 reports to the cyber tip 
line surged to 69.1 million. The FBI reported also earlier this 
year that COVID-19 school closures and stay-at-home orders 
increased risk factors for child exploitation, kids spending 
more time on devices, kids not spending time with mandatory 
reporting adults like teachers or school nurses, and kids 
seeking connection and validation on social media. And, you 
know, parents can and should do what they're able to do to 
instill safe online practices in their kids, but that's not 
foolproof against sophisticated exploiters who are out there.
     And with this increasing screen time, I as a lawmaker but 
also as a father of four young children, I want to be sure that 
we do everything to understand the issues that are facing our 
kids and empower law enforcement with technology and the data 
that they need to stop abuse.
     So my question I guess first for Ms. Kennedy, traffickers 
and abusers use social media to identify, to recruit, and groom 
victims for exploitation, particularly young children. How are 
companies and artificial intelligence technologies such as 
Marinus Analytics and Traffic Jam disrupting this practice on 
social media? And also I guess related, what challenges do 
technologies, companies, and law enforcement face with the 
broader use of end-to-end encryption in messaging apps and 
others?
     Ms. Kennedy.  Sure. Thank you for the question. So just to 
clarify, my company, we're not so much experts in child sexual 
abuse material or child porn, but I think that--and probably 
Ms. Rajan could speak to this more--that the increased use of 
encryption is challenging because we're seeing recently much of 
this--and not just the child sexual abuse material but also on 
our end of expertise, the sex trafficking material move onto 
the deep and dark web, so deep of course being behind pay walls 
or logins, and then the dark web being the dark web.
     And so I think this is a challenge because if we can't see 
where this, you know, either abuse or recruiting is happening, 
how can we actually combat it or prevent it? So I think there's 
a lot more research needed in those areas, and I'll probably 
defer to the other panelists as well to answer your question.
     Mr. McAdams.  Yes, maybe, Ms. Rajan, do you want to add 
anything there?
     Ms. Rajan.  Sure, thank you, Congressman, for the 
question.
     As I mentioned, we cover all forms of sex--of trafficking, 
including sex and labor, and I do want to acknowledge some of 
our partners in the field at the National Center for Missing 
and Exploited Children who work specifically on this issue but 
also a company called Thorn that really focuses on how 
technology can be applied here. And I think they'd be fantastic 
partners to reach out to about this specific issue.
     I want to take a moment and address the question around 
social media because at Polaris we do have a lot of data on how 
social media is both used to exploit victims and survivors but 
also how it could help. Over--in 2019 we saw that 847 likely 
victims of trafficking reported to the trafficking hotline that 
they were actually recruited into the sex or labor trafficking 
situation using online platforms, just dating sites, social 
media, and online chat rooms. And once they were in the 
trafficking situation, social media is actually used as a means 
of control. In fact, in one study that we conducted with 
survivors, Polaris found that 34 percent of respondents 
indicated that their traffickers restricted their social media 
use.
     But having said all that, I think social media can also 
play a really important role in providing support and access to 
services. In that same survey, 19 percent of survivors stated 
that social media played a role in their exit, so certain 
features of social media can be particularly critical for 
survivors such as disappearing messages, location discovery, 
and as well as selecting subgroups and follower groups. I think 
social media companies can actually do a lot to help in the 
fight against human trafficking in terms of promoting resources 
like the human trafficking hotline. And I think Congress can 
play a huge role in incentivizing social media companies to 
take action, including through oversight.
     Mr. McAdams.  Thank you. In just my closing seconds I want 
to also mention legislation that I'm working on with 
Congressman Anthony Gonzalez, who I see on this call right now, 
to look at financial patterns and movement of money and how we 
might be able to identify patterns in illicit trafficking 
activities through examination of financial networks as well. 
So thank you, and I yield back.
     Chairman Foster.  Thank you. And the Chair will now 
recognize Representative Balderson for 5 minutes.
     Mr. Balderson.  Thank you, Chairman Foster and Chairman 
Stevens, for holding this hearing.
     And my first question is for the whole panel. Anybody can 
jump in. Ohio has ranked as high as fifth across all States in 
human trafficking cases. This is an issue that we deal with 
every day in Ohio, and I'm committed to working with my 
colleagues to eradicate this despicable criminal behavior and 
help victims regain their freedom.
     We already know that many victims are trafficked through 
our Nation's airports. As a Member of the T&I (Transportation 
and Infrastructure) Subcommittee on Aviation and the Science 
Subcommittee on Research and Technology, I want to know more 
about this problematic intersection between trafficking in 
persons and air travel. What more can we do to help catch 
traffickers misusing our Nation's air transportation system to 
move victims? And anyone may jump in that can answer that 
question on the panel.
     Ms. Darnton.  I'm happy to start. This is Hannah Darnton. 
I think that one of the key things that we've seen through 
groups such as The Code and others is training for individuals 
working within--throughout the transportation industry, so 
being able to identify cases of human trafficking, of child 
exploitation is key to being able to flag them for further 
support and use of that data.
     So I think looking at how we could provide overarching 
training within these industries would be key, and ensuring 
that it's specific to the types of transportation so that the 
employees that may be seeing these instances would be able to 
actually address them and call the relevant authorities.
     Mr. Balderson.  Thank you, Hannah. Would anybody else like 
to add anything?
     Ms. Rajan.  I think you're hitting on a really important 
point, which is how do we educate corporate partners on what to 
look for and the warning signs. I want to acknowledge one of my 
colleagues at Polaris who spends time actually doing corporate 
trainings on human trafficking 101. And this, again, is 
something that really is important to explain to folks how 
human trafficking looks like, what it doesn't look like, and 
what are ways that they can contribute to solving this problem 
with us.
     Mr. Balderson.  Thank you. My follow-up question would be 
with law enforcement so close and onsite, are there any 
technologies your groups are working on that could be used to 
identify victims of human trafficking and help them while they 
are being transported via air? OK. Go ahead.
     Mr. Daggett.  I'll take a go at that. You know, there's--
when you have travelers, you know, coming through the air 
system, there are, you know, key details that we know about 
individuals. There's probably, you know, information that could 
be correlated to learn a little bit more about those 
individuals. You know, we know there are strong indicators of 
people being associated with, say, like the foster care system 
and other types of things. So there probably could be some red 
flags that are done as, you know, a part of that type of 
investigation.
     I think in general one of the challenges is is there's a 
gap between, you know, a lot of the tools that exist in 
technology that works on the open internet, and then once you 
get inside a government or a law enforcement or an 
investigative context when there's, you know, dramatically 
different data streams and data bases that don't talk to one 
another, and we've talked a little bit about information-
sharing, but with our inability to correlate between those, we 
miss connecting some of the dots.
     Mr. Balderson.  OK. Thank you very much. Mr. Chairman, I 
can't see my time, but I will yield back my remaining time. 
Thank you.
     Chairman Foster.  You have one and half minutes if you're 
interested.
     Mr. Balderson.  Well, I do have one more question dealing 
with flight attendants. For anybody, again, is there any 
training out there for flight attendants and other airline 
personnel who might have, you know, more prolonged interaction 
with potential victims?
     Ms. Rajan.  I'll comment on this. I think, again, one of 
the main points we believe at Polaris is that survivors and 
victims know what's best for them. And I think one of the most 
important things that folks can do is guide them to the 
National Human Trafficking Hotline where they can actually 
speak to hotline advocates who can help them navigate what the 
best option for them is and recognizing that there is not just 
one path to justice or to freedom and that we really need to 
think about this in a survivor-centered and victim-centered 
way.
     Mr. Balderson.  Thank you very much for your response. 
Madam--excuse me, Mr. Chairman, I yield back my remaining time. 
Thank you.
     Chairman Foster.  Thank you. And we'll now recognize 
Representative Gonzalez for 5 minutes.
     Mr. Gonzalez.  Thank you, Mr. Chairman. And thank you, 
everybody, for your participation in this incredibly important 
hearing. This has actually been one of the few things that 
well, on this Committee it's not unusual for bipartisan work, 
but this is one area where I think we have done a good job. 
Obviously, there's much more to do, and I look forward to 
continuing to work with my colleagues on this issue.
     Ms. Rajan, I want to start with you. You talked about how 
encryption can protect survivors. And I think that maybe runs 
counterintuitive to my own instincts, but I thought it was 
compelling. And in particular you talked about it in the 
crypto-space and how law enforcement can sort of map out an 
entire ring of traffickers. My question is in the traditional 
crypto-space, so the Bitcoin world, can we identify the 
traffickers? I know we can map it, but can we actually go in 
and say, OK, here's who's doing this and then law enforcement 
can go in and physically intercede?
     Ms. Rajan.  Thank you, Congressman, for the question. 
You're absolutely right. This has been a puzzling debate for me 
because I think the argument has been posed as an either/or on 
how cryptography can actually help or harm survivors.
     To go into the Bitcoin example, I think the--again, the 
important piece to recognize is because it's a currency that 
requires a way to legitimize it, these transactions are public. 
And while your wallet ID may be private, as some--in some 
situations I need to share that with you so that you can 
transfer me money. And because human trafficking is ultimately 
driven by profit, it is in the incentive of a trafficker to 
share that wallet ID.
     And so, again, I want to acknowledge folks at the company 
Chainalysis that really are experts on this particular problem 
on how can you actually create an open data set and using this 
open source intelligence to really map out a suspect or a high-
profile predator or illicit business that has been using 
cryptocurrency to facilitate these transactions. And I really--
I can send you some of the work that they've done that really 
actually shows how they've actually dismantled crime networks 
using this technology.
     Mr. Gonzalez.  Yes, that would be really interesting. I 
would love it if you could submit that.
     And then I guess a follow-up, would it be easier, harder, 
or indifferent to the law enforcement element of this if the 
cryptocurrency were a central bank cryptocurrency? So, you 
know, if the Fed got into this verses Bitcoin, or is it 
indifferent in your eyes?
     Ms. Rajan.  I think that is a great example around our 
financial intelligence unit work at Polaris and one of the 
examples that I've written in my testimony around homomorphic 
encryption which, again, poses a separate question, which is 
how do we protect the privacy of banks and their customers and 
just citizens in general? And so I think regardless of whether 
it's centralized or not, these financial transactions are 
really important pieces of the criminal aspect of it because 
that is where essentially the evidence lies. It's in the 
transaction itself. And so I think really focusing on those 
pieces and trying to hold the perpetrators who are profiting 
off of this, rather than focusing on how we can criminalize the 
survivor and victim, is paramount for us in this fight. And I 
think it's really critical to understand how anti-money 
laundering systems work and the technologies that can do this 
in a really safe and private way.
     Mr. Gonzalez.  Great. And then shifting to Mr. Daggett, so 
you describe how, you know, the ``data are currently time-and 
human-intensive to analyze with limited purpose-built 
technology to assist, leading to missed connections and lost 
opportunities for interdiction and justice.'' I just read that 
from your written testimony. With respect to the existing tech 
suite that's available, what is the most extensive value add? 
Is it it cuts down the amount of time, or is it it connects 
dots that currently are being looked at in a manual way? Just 
sort of run me through how specifically the purpose-built 
technology that can assist here.
     Mr. Daggett.  Sure. You know, one great example is, you 
know, picking up on your last question about, you know, 
cryptocurrency and whether it should be, you know, centralized, 
you know, the lifeblood of an investigation and a prosecution 
is the ability to compel records--business records. The 
challenge there is that those records from all the different, 
you know, businesses and agencies come back in a multitude of 
different formats, and some of these can be scanned documents 
that are not searchable. Other ones can be large voluminous 
amounts of financial or telecommunication transactions, and so 
you have a lack of tooling to be able to read that data and 
analyze it. You also have a lack of training on individuals who 
are dealing with that, and then a lack of knowledge management 
in terms of figuring out what does an organization know and how 
do they connect those dots and how do they put them together?
     I think it's one of the reasons you see that, particularly 
on State and Federal investigations, these investigations take 
multiple years to complete because it is so labor-intensive to 
work with the data because of its heterogeneity and 
[inaudible]. So there's a lot of capabilities that have been 
built in other sectors that could be tailored to some of these 
specific data and these specific connections that would really 
make a difference for investigators and prosecutors.
     Mr. Gonzalez.  Great. Thank you for that. Mr. Chairman, 
great hearing. Thank you for convening this. And I yield back.
     Chairman Foster.  Thank you. And, Representative Weber 
will be recognized for 5 minutes.
     Mr. Weber.  Thank you, Mr. Chairman. Great hearing, I 
agree, and I'm going to start with, is it Anjana Rajan?
     Ms. Rajan.  It's pronounced Anjana Rajan.
     Mr. Weber.  OK. Thank you for that. When I was in the 
Texas legislature back in 2009 to 2012 I guess that's before I 
got demoted to Congress. We had House Bill 4009, which did a 
lot to help recognize human trafficking and to teach and train 
our law enforcement agencies exactly what to look for that all 
of these victims, especially the young girls weren't 
necessarily guilty of wanting to be, you know, prostitutes if 
you will.
     So we realize Texas, you probably know this working with 
Polaris, has 25 percent of the Nation's human trafficking in 
the country. We're very focused on that, a lot that needs to be 
done. What Ranking Member Lucas said is incredibly correct. 
Your testimony is very compelling. You make a lot of good 
points in it. I've got probably 20 minutes worth of questions, 
Bill, so excuse me for that.
     But one of the questions I have, and I've used that number 
888-373-7888 I can't tell you how many times. It's easy to 
remember, a good number. You talked about the national traffic 
hotline. Are you able to track the data on where they got that 
number? That's a specific question for you first.
     Ms. Rajan.  It sounds like you're asking do we know how 
people are referred to the hotline.
     Mr. Weber.  Correct.
     Ms. Rajan.  Yes, I think part of what we want to make sure 
is that we build technologies that are ubiquitous and easy to 
access. You know, I think part of what is really important when 
designing technologies for survivors is oftentimes--and I'm 
guilty of this myself as an engineer--overengineering rather 
than really thinking about what survivors want. I think it's 
really important to always start with user-centered design and 
really ask yourself what--where are survivors or users 
accessing this information, and where can they get it?
     I would love to refer you to our Director of the National 
Human Trafficking Hotline who can give you a lot more detail on 
the types of data we capture on the hotline particularly, but I 
think you're bringing up a great point, which is how do we make 
sure that the tools and services we create actually get used by 
the people in need.
     Mr. Weber.  Well, that's exactly correct. In your 
testimony you make the statement that it is common for 
survivors to choose to connect with a service provider for 
wraparound before deciding if they're going to go to law 
enforcement, which we understand that because one of our things 
on House Bill 4009 was to train and put together a coalition of 
NGOs, nongovernment organizations, providers if you will, and 
law enforcement for training that said just because you pick up 
a young girl or young boy, too, doesn't always mean they're 
willfully there. In fact, we train them how to look for things.
     You said in your testimony that the national began 
operating in 2007. 9,943 situations of trafficking have been 
shared with a hotline directly. How recent is that data? You 
don't say how recent it is. 9,943, you say it began in 2007, 
but how recent is that number?
     Ms. Rajan.  So that statistic that I referenced in my 
testimony is a cumulative look at the data that we have since 
we've operated the National Human Trafficking Hotline. And I 
think the fact that you're--sorry, go ahead.
     Mr. Weber.  OK. Well, thank you for that. And I'm getting 
a little short on my time. You also talk about cryptographic 
reporting, and then you go through four systems, threshold 
based, zero trust, human legal, firewall, multiple calibrated 
options. And under the human legal firewall you make the 
statement the record is unlocked by a person who can establish 
privilege and block this information. Who decides who that 
person is?
     Ms. Rajan.  That's a great question. So in my testimony I 
reference a type of system that can help vulnerable 
communities. And while the system doesn't exist yet for human 
trafficking, I have seen--I have built systems in my past work 
for victims of sexual assault. I think the main point that we 
wanted to address was when a person is coming forward with 
vulnerable information about their sexual assault or their 
exploitation, there are many risks. The threat model is 
incredibly complex. And when you can create the technical 
systems that understand the broader system of why survivors 
need to get--access information before they come forward, you 
can really think through what that looks like.
     Now, this obviously has to be applied very carefully in 
each situation, whether it's in the sexual assault space or 
combating domestic terrorism or looking at human trafficking, 
but, again, this was a hypothetical suggestion of how this 
might be applied similarly in human trafficking.
     Mr. Weber.  Well, thank you for that. And quickly, Bill, 
before I yield back, that's a good point because we don't want 
to give any ammunition to those who say this is a violation of 
privacy. We want to be as safe and succinct as we can to 
protect [inaudible]. And, Mr. Chairman, thank you, and I yield 
back.
     Chairman Foster.  Thank you. And, Representative Beyer 
will now be recognized for 5 minutes.
     Mr. Beyer.  Mr. Chairman, thank you very much.
     You know, one of the areas of acute interest to me is 
ethical AI and facial recognition technology. So earlier this 
year, I introduced the Stop Biometric Surveillance by Law 
Enforcement Act, which would prohibit Federal agencies from 
using police body cams with biometric data collection 
capabilities, including facial recognition. It would prevent 
States and localities from purchasing body cams with these 
capabilities using Federal dollars.
     This bill introduction came after Amazon and other tech 
companies created temporary moratoria on police use of their 
facial recognition software because there are so many false 
positives. And this is giving the Congress time to regulate 
where needed.
     But the moratorium had two exceptions, one of which was 
Marinus Analytics to use the service to help rescue human 
trafficking victims. So, Ms. Kennedy, in your testimony you 
talked about developing AI for social impact. Have you 
incorporated ethical considerations of facial recognition 
technology into your platform also?
     Ms. Kennedy.  Sure. Great question. So, you know, I think 
there's important--it's important that we think really 
carefully about not just facial recognition but all different 
types of AI and how they're used by our society, right? And 
we've talked about false dichotomies recently, and I think 
there's a similar one with facial recognition where when we 
talk about it in the public space, I feel like it's kind of--
there's two extremes that are usually talked about. One is a 
total ban of all those technologies, and the other extreme is 
total unregulated use.
     And I think that there is a really important middle ground 
for their use, particularly in intervention against--in violent 
crimes against women and children, which we're talking about 
today. But I think it's important that our lawmakers do put 
important legislative guardrails around the use so that we're 
not on either of those two extremes.
     And obviously this is an ongoing conversation, but I think 
it's really important, you know, whether it's barriers to use 
or scripts, trainings, and punishment for misuse of technology 
or maybe a mix of both, but I think those are some of the 
things that we should consider.
     Mr. Beyer.  Great. And thank you for helping us point out 
the need for balance between a total banning and complete un-
regulation. And we've been in the unregulated, so we're moving 
back in the right direction I think. And obviously, it's 
different from--to protect the victims than it is for picking 
up people in an airport.
     Ms. Kennedy.  Absolutely.
     Mr. Beyer.  Yes. So, Ms. Rajan, first of all, I'm very 
impressed that you're a triathlete and you have your jersey on 
the wall behind you. But you talked about the unique properties 
of blockchain technologies and this whole notion that if you 
can know the wallet addresses, you can build the data set, you 
can literally decompose or deconstruct the entire criminal 
network. What does Congress need to do to make that happen?
     Ms. Rajan.  Thank you, Congressman. I think they need to 
understand how the technology works. I think it's one of these 
examples of tech policy being a really important part of how we 
think about other policy issues. And so I think when we look at 
some of the debate that's happening on how we should regulate 
or not regulate cryptocurrency, again, I keep coming back to 
this false dichotomy, which is we are missing the power of how 
we can actually serve this mission when we understand how these 
technologies are used.
     And so my--I think that what's really fantastic about 
hearings like this and Committees like yours is that we're 
taking the time to help legislators understand the real detail 
and implication of these technologies and how they can be best 
used.
     Mr. Beyer.  And, you know, if not now, if you can tell 
people like Chairman Foster and me what legislation we should 
write or what appropriations amendment we should do to help 
move that forward, that would be really exciting. I've been to 
Davos many times in the last couple of years. Every time, every 
storefront along the main street of Davos is about blockchain, 
and so finding ways to use that in a constructive way would be 
terrific.
     And then are you at all concerned about the current 
discussion on amending Section 230 of the Communications 
Decency Act and what risk that would pose to encryption 
mechanisms? Would that help or hurt the fight against human 
trafficking?
     Ms. Rajan.  We could probably chat about this for hours, 
and I'd be happy to chat with you offline and kind of give you 
a more thoughtful answer on how we can think about this and 
other pieces of legislation.
     Mr. Beyer.  OK. Thanks. Well, we'll seek for that offline 
opportunity to talk about it because it is complicated, but 
it's important. And with that, Mr. Chairman, I yield back.
     Chairman Foster.  Well, thank you. And before we bring the 
hearing to a close, I wanted to thank our witnesses for 
testifying before the Committee today. I'm just checking to 
make sure I'm not in fact muted.
     The record will remain open for 2 weeks for additional 
statements from the Members and for any additional questions 
the Committee may ask of the witnesses.
     The witnesses are now excused, and the hearing is now 
adjourned.
     [Whereupon, at 11:53 a.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Ms. Anjana Rajan

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record




             Statement submitted by Kayse Lee Maass, Ph.D.
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             

                                 <all>
</pre></body></html>
